OIG Audit Report GR-60-08-009

Office of Justice Programs National Institute of Justice Cooperative Agreement Awarded to the Kansas Bureau of Investigation, Topeka, Kansas

Audit Report GR-60-08-009


July 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Convicted Offender DNA Backlog Reduction Program (Program), Cooperative Agreement No. 2005-DN-BX-K046 in the amount of $227,213, and Cooperative Agreement No. 2006‑DN‑BX‑K237 in the amount of $248,238, awarded by the Office of Justice Programs (OJP), National Institute of Justice (NIJ), to the Kansas Bureau of Investigation (KBI). The purpose of the award is to accelerate the analysis of convicted offender samples collected by states in order to provide compatible data for local, state, and national DNA databases so that law enforcement is provided with critical investigative information in a timely manner.
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. As a component of OJP, the NIJ is dedicated to the mission of advancing scientific research, development and evaluation to enhance the administration of justice and public safety.
KBI was established in 1939 by the Kansas Legislature to combat the increasing magnitude and complexity of crime in the state. KBI provides professional investigative and laboratory services to criminal justice agencies for the purpose of promoting public safety and the prevention of crime.  In 1991, the KBI Laboratory was tasked with the mission of conducting DNA analysis and maintaining the DNA databank for convicted offender samples.
The purpose of this audit was to determine whether reimbursements claimed for costs under the cooperative agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the cooperative agreement, and to determine program performance and accomplishments. As a result, we reviewed performance in the following areas: (1) internal control environment, (2) drawdowns, (3) cooperative agreement expenditures, including personnel costs, (4) budget management and control, (5) Financial Status Reports (FSRs) and Categorical Assistance Progress Reports (progress reports), (6) cooperative agreement requirements, and (7) program performance and accomplishments. We determined that, matching cost, accountable property, indirect costs, program income, contractors, and subgrantees were not applicable to this cooperative agreement. 
As shown in the table below, KBI was awarded a total of $475,451 to implement the program.
 TABLE 1. DNA OFFENDER BACKLOG REDUCTION PROGRAM 
COOPERATIVE AGREEMENT TO THE KANSAS BUREAU OF INVESTIGATION 


AWARD 
 START DATE 
 END DATE 
 AMOUNT 


 2005-DN-BX-K046 
 10/01/05 
 06/30/08 
 $248,238 


 2006-DN-BX-K237 
 10/01/06 
 09/30/09 
 227,213 


 Total: 
 $475,451


Source: Office of Justice Programs
We examined KBI’s accounting records, financial and progress reports, and operating policies and procedures and found:

 the initial progress report for Cooperative Agreement No. 2005‑DN‑BX‑K046 was submitted 57 days late; however, KBI officials have since addressed this issue and filed recent reports timely. 
one transaction totaling $5,950 for supplies that was incorrectly classified as equipment. KBI officials agreed with our finding and subsequently provided documentation to support the adjusting journal entry to properly classify the expenditure as supplies. We consider the corrective action to be sufficient to address the weakness that existed, and as a result make no recommendation for additional corrective action. 
the required metrics reports, while containing the relevant information, were filed late, in some instances by significant periods of time. However, KBI officials stated that they received guidance from OJP that recipients of 2005 and 2006 awards were instructed to start submitting quarterly performance data with their semi-annual report, and the special conditions with the 2007 and 2008 awards would require that performance metrics be submitted on a semi-annual basis. Based on our review of the metrics reports, we found that KBI complied with OJP’s “revised” metrics reporting requirements; therefore, we make no recommendation for corrective action.
KBI did not upload analyzed convicted offender samples into the state and national DNA Index System as required by the solicitation. 

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I. 







Return to OIG Home Page